  Peace Corps
  Office of Inspector General




          Map of Turkmenistan




          Flag of Turkmenistan



Final Program Evaluation Report:
   Peace Corps/Turkmenistan
                                 November 2009
Final Program Evaluation Report:
   Peace Corps/Turkmenistan
                    IG-10-02-E




        ______________________________________________


                  Susan Gasper
Acting Assistant Inspector General for Evaluations




                 November 2009
                              EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted an evaluation of Peace
Corps/Turkmenistan’s operations May 18 - June 5, 2009. 1 The evaluation covered fiscal
years 2007 through May 2009 and reviewed programming, training, Volunteer support,
health care, Volunteer safety, housing, work sites, and staff organization.

At the onset of our evaluation, there were 74 Volunteers and 32 staff in Turkmenistan.
Interviews were conducted with 17 Volunteers (23% of Volunteers) and with 11 in-
country staff. Additional interviews were conducted with Peace Corps headquarters staff,
U.S. Embassy representatives in Turkmenistan, key project partners, and one returned
Peace Corps Volunteer (RPCV). PC/Turkmenistan has two project sectors: (1) English
Education and Teacher Enhancement (TEFL) and (2) Community Health Education and
Extension (CHE).

PC/Turkmenistan is considered a challenging post for staff and Volunteers. Although
government ministries expressed support for Peace Corps, government controls and
restrictions impact the effectiveness of PC/Turkmenistan’s programs, and Volunteers
struggle to meet the first goal of the Peace Corps mission – to help the people of
interested countries in meeting their need for trained men and women.

    •   The Turkmen government is heavily involved in site development, and
        PC/Turkmenistan is limited in their ability to choose Volunteer sites based on the
        community’s interest in working with a Volunteer. This results in Volunteer
        counterparts who are sometimes uninterested in knowledge transfer.
    •   The Turkmen government requires numerous approvals for Volunteer and post
        activities, and sometimes Volunteers are prevented from undertaking project plan
        activities.
    •   The health project is limited because the Turkmen government will not allow
        Volunteers to conduct health education in the classrooms where they can be most
        effective.
    •   Ministries do not want Volunteers to perform activities outside of their assigned
        sector even if the community and Volunteer have identified a need the Volunteer
        can fill.
    •   Ministry representatives will not participate in formal Project Advisory
        Committees, and Memoranda of Understanding have not been developed.
    •   The post and Embassy have been unable to work with the Turkmen government
        to obtain all of the host country contributions included in the country agreement.


1
 The OIG issued its preliminary report on the Program Evaluation of Peace Corps/Turkmenistan to the
agency on August 10, 2009. In September 2009, the government of Turkmenistan informed Peace Corps
that the next Volunteer input would be welcomed in September 2010, not September 2009 as originally
planned. As a result, the September 2009 Volunteer input was canceled.



Final Program Evaluation Report: Peace Corps/Turkmenistan                                             i
Aside from the impact of the Turkmen government, the OIG evaluation also determined that
other factors inhibit the efficiency and effectiveness of PC/Turkmenistan.

   •   Volunteers have received inaccurate information about the reality of serving in
       Turkmenistan.
   •   Staff are burdened by the Turkmen government’s administrative demands and
       Peace Corps staffing shortages caused by lack of funding.
   •   Staff and Volunteers reported that they believe that programmatic changes need to
       be made before expanding the number of Volunteers, and the post may not be
       able to meet the region’s growth expectations.

The aforementioned problems are not unique to PC/Turkmenistan, and other posts often
face some of these challenges. However, when combined with the restrictions imposed
by the Turkmen government, these factors make it difficult for the PC/Turkmenistan
program to be effective and promote sustainability.

Despite these challenges, the OIG evaluation discovered that staff and Volunteers believe
that Peace Corps has the potential to make a positive contribution in Turkmenistan. With the
election of the new Turkmen president, the staff has seen positive changes in the country and
Volunteers are not being monitored as closely by state police. Volunteer safety and security
is generally not a concern. The post has a knowledgeable and dedicated staff that works
well together, and Volunteers are pleased with the support they receive. Resignation rates for
PC/Turkmenistan have been declining and are currently below regional and global averages.

Our report contains 17 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Turkmenistan                                   ii
                                                             Table of Contents
EXECUTIVE SUMMARY ................................................................................................. I

HOST COUNTRY BACKGROUND................................................................................. 1

PEACE CORPS PROGRAM BACKGROUND ................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 2

EVALUATION RESULTS ................................................................................................ 4
PROGRAMMING ............................................................................................................................................... 4

CROSS-CULTURAL UNDERSTANDING .............................................................................................................. 8

TRAINING ........................................................................................................................................................ 8

VOLUNTEER SUPPORT ................................................................................................................................... 11

MANAGEMENT CONTROLS ............................................................................................................................ 17

POST STAFFING............................................................................................................. 22

INTERVIEWS CONDUCTED ........................................................................................ 23

LIST OF RECOMMENDATIONS .................................................................................. 24

APPENDIX A: Management’s Response

APPENDIX B: OIG Comments

APPENDIX C: Program Evaluation Completion and OIG Contact
                    HOST COUNTRY BACKGROUND

Turkmenistan is located in Central Asia and borders Kazakhstan, Uzbekistan, Iran,
Afghanistan, and the Caspian Sea. Historically, it was an important stop on the Silk
Road. Annexed by Russia between 1865 and 1885, Turkmenistan became a Soviet
republic in 1924. Turkmenistan was a relatively neglected republic under the Soviets,
which made few investments in industry or infrastructure. Upon the dissolution of the
Soviet Union, Turkmenistan formally declared its independence on October 27, 1991.

The country has suffered from widespread internal poverty, a poor educational system,
government misuse of oil and gas revenues, and a reluctance to adopt market-oriented
reforms. “President for Life” Saparmurat Nyyazow died in December 2006, and
Turkmenistan held its first multi-candidate presidential electoral process in February
2007, at which time Gurbanguly Berdimuhamedow emerged as the country's new
president. Since his election, President Berdimuhamedow has sought to improve the
health and education systems. The Turkmenistan government is actively seeking to
develop alternative petroleum transportation routes to break Russia's pipeline monopoly.
Extensive hydrocarbon/natural gas reserves could prove a boon to this underdeveloped
country if extraction and delivery projects are expanded. Although foreign investment is
encouraged, numerous bureaucratic obstacles remain.



             PEACE CORPS PROGRAM BACKGROUND

The Peace Corps first entered Turkmenistan in 1993. After the events of September 11,
the program was suspended in 2001 as a safety precaution. Volunteers returned to
PC/Turkmenistan in 2002 and have since served in the country without interruption.
Over 651 Volunteers have served in Turkmenistan since the inaugural program in 1993.

Although there is an active country agreement between the Peace Corps and the
government of Turkmenistan, there are no Memoranda of Understanding with the
government ministries that work with PC/Turkmenistan on its projects. At the time of
this evaluation, there were 74 Volunteers serving in the following two projects:

   • English Education and Teacher Enhancement (TEFL)
   Volunteers teach English in primary and secondary schools, institutes of higher
   education, business centers, and health care facilities. They also organize and
   conduct teacher training workshops in current teaching practices and materials
   development. Many schools where Volunteers teach have been designated as
   “specialized schools,” where students begin learning English in primary grades.




Final Program Evaluation Report: Peace Corps/Turkmenistan                               1
    • Community Health Education and Extension
    The health project focuses on community health education, extension, and prevention
    in rural collective farms. Volunteers work closely with local caregivers to develop
    educational outreach projects that emphasize maternal and child health and promote
    preventive health care practices in rural communities. Key areas targeted for
    intervention include anemia, diseases related to diarrhea, drug and alcohol abuse,
    acute respiratory disease among children, reproductive health of women, neo-natal
    care, the promotion of breastfeeding, and the prevention of sexually transmitted
    diseases.



           OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote effectiveness and efficiency in
government. In February 1989, the Peace Corps/OIG was established under the Inspector
General Act of 1978, as amended, and is an independent entity within the Peace Corps.
The Inspector General (IG) is under the general supervision of the Peace Corps Director
and reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps Office of Inspector General provides the
agency with independent evaluations of all management and operations of the Peace
Corps, including overseas posts and domestic offices. OIG evaluators identify best
practices and recommend program improvements to comply with Peace Corps policies.

The Office of Inspector General Evaluation Unit announced its intent to conduct an
evaluation of PC/Turkmenistan on April 6, 2009. For post evaluations, we use the
following researchable questions to guide our work:
•   To what extent has the post developed and implemented programs intended to
    increase the capacity of host country communities to meet their own technical needs?
•   To what extent has the post implemented programs to promote cross-cultural
    understanding?
•   To what extent does training provide Volunteers the necessary knowledge, skills, and
    attitudes to integrate into the community and perform their jobs?
•   To what extent has the post provided adequate support and oversight to Volunteers?
•   To what extent are post resources and agency support and oversight effectively
    aligned with the post's mission and program and agency priorities?

The evaluation team conducted the preliminary research portion of the evaluation
April 7 - May 15, 2009. This included review of agency documents provided by
headquarters and post staff, and interviews with management staff representing the region
and the Office for Overseas Programming and Training Support (OPATS). In-country
fieldwork occurred May 18 - June 5, 2009, and was comprised of file and document
reviews, physical inspections of selected office areas, and interviews with post senior

Final Program Evaluation Report: Peace Corps/Turkmenistan                              2
staff in charge of programming, training, and support; the Chargé d’Affaires at the U.S.
Embassy; the Regional Security Officer; and host country government ministry officials.
In addition, we interviewed a stratified judgmental sample of 23% of currently serving
Volunteers based on their length of service, site location, project focus, gender, age, and
ethnicity. The following table provides demographic information that represents the
entire Volunteer population in Turkmenistan; the Volunteer sample was selected to
reflect these demographics.

           Table 1: Volunteer Demographic Data
                                                                    Percentage of
                                 Project
                                                                     Volunteers
               Community Health Education and                           41%
               Extension
               English Education and Teacher
                                                                        59%
               Enhancement (TEFL)
                                                                    Percentage of
                                Gender
                                                                     Volunteers
               Female                                                   62%
               Male                                                     38%
                                                                   Percentage of
                                  Age
                                                                    Volunteers
               25 or younger                                            82%
               26-29                                                    15%
               30-54                                                     3%
               55 and over                                               0%
           Source: April 2009 PC/Turkmenistan Volunteer roster.
           Note: Percentages may not total 100% due to rounding.



Seventeen Volunteers were identified as part of the sample. Volunteer interviews were
conducted using a standardized interview questionnaire, and Volunteers were asked to
rate many items on a five-point scale (1 = not effective, 5 = very effective). The analysis
of these ratings provided a quantitative supplement to Volunteers’ comments, which were
also analyzed. For the purposes of the data analysis, Volunteer ratings of “3” and above
are considered favorable. In addition, 16 of 17 Volunteer interviews included a visit to
the Volunteers’ homes, and we inspected these homes using post-defined site selection
criteria. The period of review for a post evaluation is one full Volunteer cycle (typically
27 months).

After completing fieldwork, follow-up interviews with additional headquarters staff were
conducted regarding the Masters International program, the Volunteer placement process,
and Small Project Assistance (SPA) grants.

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by Council of the Inspectors General on Integrity and Efficiency (CIGIE). The


Final Program Evaluation Report: Peace Corps/Turkmenistan                                 3
evidence, findings, and recommendations provided in this report have been reviewed by
agency stakeholders affected by this review.


                            EVALUATION RESULTS

PROGRAMMING

The evaluation assessed whether post has developed and implemented programs intended
to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:
   •   The coordination between Peace Corps and the host country in determining
       development priorities and Peace Corps program areas.
   •   The existence of project plans based on host country development priorities and
       the Volunteers’ understanding of the project plan goals and objectives.
   •   Whether Volunteers are placed in sites where they can contribute meaningfully to
       meeting host country development priorities.
   •   Relationships with counterparts that enable Volunteers to have productive work
       assignments that meet host country development priorities.

In reviewing the post’s relationship with the U.S. Embassy in Turkmenistan, the OIG
found no significant areas of concern that would warrant action by the post. Post staff
members participate in Embassy meetings and communicate on a regular basis while still
maintaining the necessary independence of Peace Corps.

Volunteers were unable to fully implement their project plans to achieve knowledge
transfer and sustainability.

The first goal of the Peace Corps mission is “to help the people of interested countries in
meeting their need for trained men and women.” To support this goal, the project plans
and Volunteer Assignment Descriptions (VADs) for the TEFL and health projects
instruct Volunteers to work with their counterparts to deliver education and increase
counterparts’ skills. However, 59% (10 of 17) of the Volunteers interviewed stated that
they have had difficulties working with their counterpart to implement their Peace Corps
and sector-specific goals that promote sustainable skills transfer. This confirms data
from the 2008 Biennial Volunteer Survey (BVS). Volunteers in PC/Turkmenistan rated
their ability to build local capacity for sustainability and involve local people in planning
and implementing activities lower than global averages. They also rated their impact on
counterparts’ planning and management, problem solving, and technical skills lower than
global averages.

Peace Corps’ “Programming and Training Booklet 5: How to Implement a Project”
stresses the importance of placing Volunteers in sites where the community demonstrates
an interest in working with a Volunteer. In Turkmenistan, Volunteers are assigned to
sites and counterparts that the Turkmen government has selected and Peace Corps has

Final Program Evaluation Report: Peace Corps/Turkmenistan                                   4
approved. Site development is driven by the government’s decision to place a Volunteer
in the community, not necessarily the community’s interest in having a Volunteer. Even
though the post provides counterpart training and encourages Volunteers to have multiple
counterparts, Volunteers face challenges meeting all of their goals and developing
counterpart relationships that result in sustainable knowledge transfer. Sample Volunteer
comments include the following:

       “The government chooses sites for Peace Corps and I wonder why my site
       asked for Peace Corps to be there. There are other English teachers and
       none of them has any interest in advancing their skills. . . . There’s a total
       absence of motivation.”

       “It seems here that the sites are told they'll get a Volunteer. They don't ask
       for one. They have apathy towards working with the Volunteer.”

       “I've never felt so unwelcome by the teachers and administration.”

Volunteers also expressed frustration with the government’s involvement in approving
Volunteer activities. Fifty-nine percent (10 of 17) of the Volunteers interviewed stated
that numerous permissions are required to conduct activities included in the project plans,
such as convening clubs and using school resources to teach students, and Volunteer
activities are often denied. Staff and Volunteers reported that local governments deny
Volunteer activities even if the national government approves. The Ministry of Health
and Ministry of Education also discourage Volunteers from engaging in secondary
activities that are not directly related to their sector. This makes it difficult for
PC/Turkmenistan Volunteers to use Participatory Analysis for Community Action
(PACA) tools to conduct a community needs assessment and implement related
development programs. The difficulties created by the Turkmen government cause
Volunteers to question whether the government truly wants Peace Corps Volunteers.
Sample comments from Volunteers indicate their frustration:

       “In general, Volunteers feel that our work here is in vain, futile, and
       doesn't seem to be sustainable. . . . it seems that the country should be
       more open to us working. The local governments seem to be impeding
       our work . . .”

       “I think there's a disconnect between policies at the national level and
       what's happening at the local level. The national government supports
       things that the local government won't let us do. . . . On the local level
       we're being harassed or prohibited from doing things and they shut down
       the clubs.”

       “The Turkmen government needs to change its approach and attitude
       about us being here or else we need to drastically change the approach to
       being here. Local heads have too much influence.”



Final Program Evaluation Report: Peace Corps/Turkmenistan                                5
       “I'm not sure that [the work] should continue, at least the way it is. . . .
       Projects and programs here are not sustainable. . . . I don't feel like the
       government or administration wants us here. I'm glad I'm here now but I
       wouldn't recommend it to anyone else.”

Some staff and Volunteers stated that the challenges are even greater for the Health
project, and they question whether it can be effective. Health Volunteers are supposed to
perform health education activities but the Turkmen government does not allow them to
work in schools, which are a good place to provide education. Instead, Volunteers are
placed in Houses of Health to work alongside doctors and nurses. Since most of the
Health Volunteers do not have medical backgrounds, it is difficult for them to provide
health education alongside trained medical professionals in a clinic setting. Sample
comments from Volunteers and staff indicate the challenges Health Volunteers face:

       “It can be difficult for Volunteers to explain that they’re health educators,
       not health workers. People assume that because you’re in a hospital you
       have a medical background. . . . It’s hard for Volunteers to explain that
       they don’t have a medical background.”

        “The top-down approach from the government . . . limits me in what I can
       do. I can't be in the schools and that's one of the best places to teach
       health. . . . So you're left with trying to get around the rules or just do
       activities that are marginally effective.”

       “One thing I wonder is the role of the health sector here. I'm not sure if
       the work we're doing is sustainable. . . . A lot of them just want me to
       teach English. Maybe that's what I should do . . .”

Despite these challenges, staff and Volunteers see a need for Peace Corps in
Turkmenistan and do not think the program should be discontinued. Instead, Peace
Corps may need to engage the Turkmen government differently on both a national and
local level or revise the project plans and related training. One staff member commented,
“The question is whether it’s time to . . . push the government for support. . . . When we
hit roadblocks we don’t know if it’s a lack of will or a lack of capacity. If it’s capacity,
we need to be here. If it’s a lack of will then we need to reassess.”


               We recommend:

                 1. That the post and region develop a strategy to
                    address the obstacles that are impacting Volunteer
                    effectiveness.




Final Program Evaluation Report: Peace Corps/Turkmenistan                                  6
                 2. That the post work with OPATS to assess the
                    viability of the project plans. If needed, make
                    changes to the project plan(s), VADs,
                    competencies, training, and/or related processes
                    and documentation.


The post has had difficulty maintaining formal collaborative agreements and
relationships with the government of Turkmenistan.

Peace Corps encourages the use of several tools, including Project Advisory Committees
(PACs), Memoranda of Understanding (MOUs), and country agreements, to collaborate
with host country governments. However, these are not being used or upheld in
Turkmenistan and, as already noted, staff and Volunteers are frustrated with the Turkmen
government’s interference in conducting Volunteer activities and the bureaucracy the
government requires for typical Peace Corps activities.

Although Peace Corps recommends the use of PACs as a way to collaborate with
ministry-level and local partners, the Turkmen government has not agreed to participate.
Staff reported that the government is suspicious of foreigners, and this makes it difficult
for government officials to feel comfortable developing relationships that promote
collaboration with Peace Corps.

Indicators of a High Performance Post section 6.2 recommends that posts develop formal
MOUs to outline the cooperation between Peace Corps and host country partners and to
ensure that both parties are aware of their responsibilities. PC/Turkmenistan does not
have MOUs with the Ministry of Health or Ministry of Education. Developing these
could clear up confusion between Peace Corps and the various levels of the Turkmen
government who are involved in Volunteer projects.

When opening a new post, Peace Corps Manual section 340.3.1 instructs regional and
country management to develop an agreement with the host country government.
Although Peace Corps and the government of Turkmenistan signed a country agreement
in February 1993, the agency is not receiving all the host country contributions. The host
country agreement states that Peace Corps is exempt from taxes. It also states that
housing will be provided “to the American citizens entering Turkmenistan under the
auspices of the Peace Corps.”

According to post staff, Peace Corps is paying taxes on some purchases, such as phone
service. The Embassy is facing the same problem. Although the required paperwork was
submitted to the Turkmen government approximately one year ago, the post and Embassy
are awaiting action. Peace Corps also pays for staff housing for its three U.S. direct hires
(USDH) , and Volunteers use their monthly living allowance to pay for housing expenses
and/or host family reimbursements. Both of these items were included in the 2006 OIG
audit of PC/Turkmenistan. At the time, the associated costs were estimated to be



Final Program Evaluation Report: Peace Corps/Turkmenistan                                     7
$148,000 for housing – $98,800 for Volunteer housing and $49,200 for staff housing –
and $2,800 for VAT. The costs were not re-estimated as part of this evaluation.


               We recommend:

                 3. That the post develop MOUs with the local
                    Ministries.

                 4. That the post either pursue reimbursement from
                    the government of Turkmenistan for the cost of
                    housing and taxes paid or renegotiate the host
                    country agreement to reflect current realities.


CROSS-CULTURAL UNDERSTANDING

The second objective of a post evaluation assesses whether Peace Corps programs in a
given country help promote a better understanding of Americans on the part of the people
served. Cultural exchange is an integral part of the transfer of knowledge and skills that
occurs between host-country community partners and Volunteers. To understand the
extent to which the post has implemented programs and activities to promote cross-
cultural understanding, we interviewed Volunteers, post staff, and project partners and
reviewed training and evaluation materials.

In reviewing Volunteers’ overall ability to learn the local language and integrate into
their communities, the OIG found no significant areas of concern that would warrant
action by the post. Ministry representatives stated that Volunteers have good language
skills and are able to integrate. Volunteers are generally satisfied with their language
training, and the post reimburses Volunteers who use a language tutor. Although a few
Volunteers stated that they would have benefited from learning Russian, they have been
able to carry out their Volunteer assignments using the language training provided in
PST. Volunteers also stated that they were satisfied with the effectiveness of the cross-
cultural training they received during pre-service training (PST) and were able to
integrate into their communities. However, Volunteers stated that they would benefit
from learning about the different ethnicities and cultures that are present in the country’s
five regions where Volunteers are placed.


TRAINING

Another objective of the post evaluation is to answer the question “to what extent does
training provide Volunteers the necessary knowledge, skills, and attitudes to integrate
into the community and perform their jobs?” To answer this question we consider a
number of factors, including:


Final Program Evaluation Report: Peace Corps/Turkmenistan                                      8
      •    The existence of training goals, competencies, and learning objectives that help a
           post understand the skills Volunteers need.
      •    The types of training trainees and Volunteers receive, the topics covered during
           those training sessions, and whether training targets were met.
      •    The feedback on the effectiveness of training in providing the skills and
           knowledge needed for Volunteer assignments and success.

In reviewing the quality of training staff and contractors, the OIG found no significant
areas of concern that would warrant action by the post. Staff stated that they have had
trouble finding qualified Language and Culture Facilitators (LCF) for PST.
Turkmenistan is focused on improving education and has increased salaries for local
teachers. Since PC/Turkmenistan’s LCF salaries have not increased at the same rate, the
post has not always been able to find people with the right skills to fill the temporary
LCF positions that require the LCFs to live at the training site. Even though the post has
not been able to raise salaries, they are going to change the LCF responsibilities, which
may improve recruiting.

Volunteer training generally provides Volunteers with needed skills; however,
improvements are needed in technical training.

Volunteers in PC/Turkmenistan participate in several training programs, including pre-
service training (PST), project design and management (PDM), mid-service training
(MST), and an all-Volunteer conference. 2 We asked 17 Volunteers to rate the
effectiveness of these trainings and found that training is generally effective but
improvements need to be made in PST technical training. This confirms data from the
2008 BVS in which Volunteers in PC/Turkmenistan rated PST technical training lower
than the global average.

          Table 2: Volunteer Perceptions of Training Effectiveness
                                                            Moderate (3) /
                                      Ineffective (1) /                         Average
                   Area                                   Above average (4) /
                                     Below average (2)                          Rating
                                                           Very effective (5)
           PST:
             Language1                         18%                   82%          3.7
             Culture1                          12%                    88%         3.6
             Safety/Security1                   0%                   100%         4.5
             Medical/Health1                    0%                   100%         4.6
             Technical1                        29%                   71%          2.8

           PDM1                                12%                   88%          3.8
           Mid-Service
                                               29%                   71%          3.4
           Training (MST)2
           All-Volunteer
                                               17%                   83%          3.5
           Conferece3
           Source: OIG Volunteer Interviews.
           1
           N = 17, 2N = 7, 3N = 6

2
    The All-Volunteer conference has been canceled as of May 2009.

Final Program Evaluation Report: Peace Corps/Turkmenistan                                       9
Volunteers stated that technical training should provide more concrete information in
areas such as lesson planning, teaching methodologies, and working with counterparts.
Some Volunteers said that they need more training about how to schedule their workday,
and they would appreciate the insight that can be provided by Volunteers who have
already been in country. Volunteers provided similar feedback to staff during the May
2009 Volunteer Advisory Council (VAC) meeting.

There were no notable differences in the feedback provided by Volunteers in the TEFL
sector compared to Health. However, Volunteers in the most recent input group rated
their technical training higher than Volunteers in the previous group, indicating that the
post has already started to make improvements.

    Table 3: Perceptions of Technical Training Effectiveness (by Input Group) 3
                                              % of Volunteers Rating
                Volunteer Group               “Average Effectiveness”        Average Rating
                                                    or Better
     T161                                                 57%                       2.4
     T172                                                 89%                       3.2
    Source: OIG Volunteer Interviews.
    1
      N=7
    2
      N=9



Although post staff recognized that providing adequate technical training is an issue they
are trying to address, they also described the difficulty of providing inexperienced
trainees with all the information they need in the relatively short period of time that is
allotted for PST. To help alleviate this challenge, staff stated that they would like to
obtain an online training module that Invitees could access before arriving in country. A
neighboring post has this type of tool, but PC/Turkmenistan does not have the technical
capacity to adapt it to their site.


                  We recommend:

                    5. That the post continue to improve technical
                       training to match the realities of Volunteer
                       assignments.

                    6. That the post and region assess the viability of an
                       online training module for Invitees.




3
 Volunteers in the T16 input group commenced service in December 2007. Volunteers in the T17 input
group commenced service one year later in December 2008.

Final Program Evaluation Report: Peace Corps/Turkmenistan                                            10
Trainees do not receive a formal competency assessment during pre-service training
(PST).

All Peace Corps posts are required to implement the Peace Corps training, design, and
evaluation (TDE) model. PC/Turkmenistan has developed competencies and learning
objectives. OPATS Specialists expressed concern about the quality of
PC/Turkmenistan’s competencies and their integration into training; however, post staff
stated that they have been improving their competencies and are trying to better integrate
them into training.

Part of the TDE model includes an assessment of trainees to determine if training has
provided them with the skills needed during their service. According to guidelines
recommended by the previous Director of the Center for Field Studies and Applied
Research (now called OPATS), “learning results will be measured as each trainee or
Volunteer demonstrates the achievement of learning objectives related to the
competencies.” In order to measure trainees’ competency development, the post
conducts language testing to determine language proficiency. Trainees also complete a
self-assessment to rate their progress in achieving the competencies. However, staff does
not conduct an independent assessment to determine if trainees have mastered the
competencies by the end of PST. As a result, staff members cannot ensure that trainees
have the necessary skills.


               We recommend:

                 7. That the post develop methods to assess trainees’
                    competencies during PST.


VOLUNTEER SUPPORT

This evaluation attempts to answer the question “to what extent has the post provided
adequate oversight and support to Volunteers?” To determine this, our evaluation
assesses numerous factors, including staff communications to Volunteers; project and
status report feedback; medical support; safety and security support elements such as site
visits, the Emergency Action Plan (EAP), and the handling of crime incidences; and the
adequacy of the Volunteer living allowance.

In reviewing crime reporting and handling, EAP familiarity, site visits, the Volunteer
Advisory Committee (VAC), the Volunteer living allowance, and Volunteer homestay
experiences, the OIG found no significant areas of concern that would warrant action by
the post. Volunteers have generally been satisfied with the way the staff handled crimes,
and 94% of the Volunteers interviewed stated that they would report a crime to Peace
Corps if it occurred. Ninety-four percent of the Volunteers interviewed are familiar with
their EAP. Volunteers reported that they were also satisfied with the number of site visits

Final Program Evaluation Report: Peace Corps/Turkmenistan                               11
they received and thought the visits were effective. Volunteers and staff noted that the
VAC is effective in raising issues. Although most Volunteers stated that the living
allowance is adequate, some Volunteers and staff noted that it is not high enough to cover
rent if a Volunteer decides to live alone instead of with a host family. While some
Volunteers thought their homestay experience was valuable, others stated that living with
a host family created stress, caused health and nutrition concerns, and prevented them
from integrating into the broader community. Some Volunteers told us that they want the
post to provide more support in finding alternative housing, but staff members are already
overburdened and unable to spend time locating housing that is in short supply.

Volunteers reported that they were satisfied with staff support.

Overall, Volunteers in PC/Turkmenistan reported that they were well supported by staff.
Ninety-four percent of the Volunteers interviewed rated PC/Turkmenistan staff as
“effective” or better at helping them adjust to life as a Volunteer, with an average rating
of 3.9. For overall support, the average ratings for staff are as follows:

        Table 4: Responses on Perception of Volunteer Support 4
                                    Average Rating for          % of Volunteers rating
          Area
                                        Support               “average support” or better
         Leadership                         4.3                            100%
         Programming                        4.1                            93%
         Training                           4.3                            100%
         Safety and Security                4.5                            100%
         Medical                            4.3                            100%
         Administrative                     4.1                            100%
        Source: OIG Volunteer Interviews, 2009



Staff noted that they have made an effort to improve the level of Volunteer support and
the quality of communications to Volunteers. Comments from Volunteers about the
PC/Turkmenistan staff were generally very positive. However, some Volunteers
commented that the support provided by the two Peace Corps Medical Contractors
(PCMCs) varies depending on who is providing treatment. Other Volunteers stated that
some of the information they receive from the PCMCs is based on Turkmen beliefs.
Despite this, no Volunteers indicated that they received inadequate medical care.

Staff has not provided regular feedback on Volunteers’ trimester reports. Volunteers
who have received feedback found it useful.


4
 The Leadership score was derived from the score for the country director; the Programming score was
derived by averaging the scores for the PTO, program manager, and assistant program managers; the
Training score was derived by averaging the scores for the training manager and language coordinator; the
Safety and Security score was derived from the score for the safety and security coordinator; the Medical
score was derived from the collective Peace Corps Medical Contractor scores; the Administrative score was
derived from the score for the administrative officer.


Final Program Evaluation Report: Peace Corps/Turkmenistan                                             12
Volunteers in PC/Turkmenistan are required to submit a report three times a year that
contains information on Volunteer activities. Peace Corps’ “Programming and Training
Booklet 5: How to Implement a Project” encourages staff to respond to Volunteer
submissions.

As part of the post evaluation, the OIG reviewed Volunteers’ files for evidence of
trimester report feedback and asked Volunteers about the receipt and quality of the
feedback. Although the files for all of the 17 Volunteers who were interviewed contained
feedback on the most recent trimester report, the files did not contain feedback for all
previous reports. Furthermore, we reviewed files for 10 Volunteers who were not
interviewed by the OIG, and none of these files contained trimester report feedback.
Staff in PC/Turkmenistan indicated that programming staff regularly provided feedback
in the past but they were unable to continue when a staff member left and the remaining
staff had to assume additional responsibilities. Staff confirmed that they prioritized
providing feedback to Volunteers who were being interviewed by the OIG.

Most Volunteers who have received feedback were pleased with its quality. Ninety-four
percent of the Volunteers interviewed rated the quality of the feedback favorably, with an
average rating of 3.9. In particular, Volunteers stated that they appreciated feedback on
the problems and experiences described in their reports.


               We recommend:

                8. That the PC/Turkmenistan programming staff
                   provide Volunteers with regular, timely trimester
                   report feedback.


Some Volunteers could not correctly identify their consolidation point location.

According to Peace Corps Manual (PCM) section 270.7.1, “each post is required to have
a detailed EAP that sets forth the procedures that staff and [Volunteers/trainees] should
follow to prepare for and respond to non-medical emergencies that may occur in-
country.” As part of its Emergency Action Plan (EAP), PC/Turkmenistan assigns
Volunteers to a consolidation point where they must meet if the “consolidation” stage of
the EAP is activated. Sometimes PC/Turkmenistan uses a Volunteer’s residence as a
consolidation point.

Only 76% of the Volunteers interviewed correctly identified their consolidation point. Of
the four Volunteers who were incorrect or unsure of the location, three of them had
recently experienced a change in the location of their consolidation point. Although these
Volunteers knew the name of the Volunteer whose residence served as the consolidation
point, they indicated that the Volunteer had recently moved, and they did not know the
location of his/her new residence. Staff stated that they planned to communicate the



Final Program Evaluation Report: Peace Corps/Turkmenistan                              13
change to affected Volunteers once they received an updated Site Locator Form with
directions to the new consolidation point.

By allowing time to pass before communicating updated consolidation point locations to
Volunteers, the post is at risk of having Volunteers who do not know where to go if the
EAP is activated.


                 We recommend:

                   9. That the safety and security coordinator develop a
                      process to immediately communicate consolidation
                      point changes to affected Volunteers.


Many Volunteers’ Site Locator Forms were missing police contact information.

Indicators of a High Performance Post section 11.2 encourages posts to maintain
emergency site locator forms and update them regularly. PC/Turkmenistan uses Site
Locator Forms (SLFs) that require Volunteers to provide this important information. As
part of the evaluation, the OIG reviewed 16 SLFs for the 17 Volunteers in the interview
sample. 5 Most of the SLFs had accurate maps and directions to the Volunteer’s home,
information on local medical facilities, and multiple means of contacting the Volunteer,
including at least one non-cellular telephone number.

However, 75% (12 of 16) of the SLFs reviewed by the evaluation team were missing
contact information for local police. As a result, it is unclear whether PC/Turkmenistan
has been able to verify whether Volunteers have identified their local police department,
which Volunteers may need to contact in case of emergency.


                 We recommend:

                   10. That the country director require post staff to
                       review the accuracy and completeness of Site
                       Locator Forms.




5
 The interview sample included a married couple. Both of these Volunteers had the same Site Locator
Form. The data for their form was only counted once.

Final Program Evaluation Report: Peace Corps/Turkmenistan                                             14
PC/Turkmenistan is completing multiple Emergency Action Plan (EAP) tests each year
but is not testing the plan with all in-country Volunteers and trainees.

According to the PCM section 270.7.2:

            “. . . the EAP must be reviewed and tested annually to identify areas that may
            need revision. Such testing should include, at a minimum, the adequacy and
            reliability of the in-country communication network and the process for
            confirming the course of action to be taken by [Volunteers/Trainees] and staff at
            each potential stage of an emergency.”

PC/Turkmenistan completes multiple EAP tests throughout the year. The post’s annual
plan for these tests is outlined in its EAP and is included below in its original format.

           Table 5: PC/Turkmenistan’s EAP Testing and Reporting Plan
           Test                                   Participants            Date(s) to be completed
           Communications                       SSC and Wardens        Monthly
           (Warden phone check)                                        (The first business day of the
                                                                       month).
           Communications (each quarter   PCVs and PCTs                Quarterly
           will rotate between primary andCD, SSC, AO,
           secondary communication means) Receptionist, AA
           Consolidation                  All (or regional)            Annually
                                          PCV/Ts
         Evacuation (table top) 6         Senior Staff and             Annually
                                          Wardens
         Office Emergency Preparedness    Any staff /PCVs              Once a year
         (Fire drill, etc.)               present in the PC
                                          office.
        Source: PC/Turkmenistan EAP, updated February 2009



The evaluation confirmed that most of these tests are being completed as follows:
       •    Telephone communications tests with wardens are being completed monthly.
       •    A consolidation test with all trainees was completed in October 2008 during the
            last PST.
       •    The staff completed an evacuation tabletop exercise in July 2008 that simulated
            the post’s response to an earthquake.
       •    The post completed a fire drill in May 2009.

The one area where the post has not met its testing goal is a communications test that
includes all Volunteers and trainees. The last test of this kind was conducted in August
2007. Although the post was able to reach 92% of the in-country Volunteers within eight
hours, three Volunteers were never contacted. This test should be completed regularly so
the post can determine if it is able to contact all Volunteers in case of emergency.

6
    The term “table top” refers to a simulation exercise to test participant responses.

Final Program Evaluation Report: Peace Corps/Turkmenistan                                               15
                 We recommend:

                   11. That the post complete an annual EAP test that
                       includes all Volunteers and trainees in accordance
                       with its EAP testing and reporting plan.


Volunteers’ housing did not always meet the post’s housing criteria and some criteria
were unclear.

Before placing a Volunteer at a site, PC/Turkmenistan’s three Housing Coordinators use
a housing checklist to assess the suitability of host family houses and individual
apartments. Of the Volunteers interviewed, only 54% (seven out of 13) of their sites met
all of the criteria when the Volunteer moved in. 7 The most common problems were
related to post’s criteria regarding windows and having housing that is within a
30-minute walking distance to a market and the Volunteer’s workplace. Some
Volunteers had broken windowpanes; windows that were nailed shut, thereby creating a
fire escape hazard; and windows that could not lock. Several Volunteers also reported
that they were not within a 30-minute walking distance of a market and/or their
workplace. These Volunteers reported that they were able to reach these locations within
30 minutes if taking a taxi or public transportation, although their living allowances were
not adjusted to compensate for this additional expense.

Although most of PC/Turkmenistan’s housing criteria is clear, there were some that were
difficult to interpret. For example, even though most Volunteers were close to a small
store that sells limited food, they were not near a large market, and it was unclear which
resources the staff in PC/Turkmenistan intended the Volunteer to access within 30
minutes. Another criterion that caused confusion stated, “diversity issues pose no
problem in placing a [Volunteer] in this house/apartment.” Some Volunteers were
unclear if this referred to the presence of ethnic tensions in the community or the
community’s willingness to accept Volunteers of various genders, ages, and ethnicities.

Because numerous staff members in PC/Turkmenistan have responsibility for assessing
Volunteer housing, the lack of clear criteria places the post at risk of having different
staff members evaluate the sites in different ways and may place Volunteers at risk if
critical housing criteria are not understood.


                 We recommend:

                   12. That the post assess the clarity of the housing
                       criteria and update the housing checklist, if
                       needed.

7
 Based on data from 13 Volunteer housing assessments. Although 17 Volunteers were interviewed, two
Volunteers are married and the data from their housing assessments was only counted once to avoid double
counting. Data for three other Volunteers was stored electronically and is no longer available.

Final Program Evaluation Report: Peace Corps/Turkmenistan                                            16
MANAGEMENT CONTROLS

Another key objective of the post evaluation is to assess the extent to which (1) the post’s
resources are effectively aligned with the post's mission and program and agency
priorities and (2) the agency supports and oversees the post's mission and program. To
address these questions, we assess a number of factors, including the post’s planning and
oversight of operations, staff management and training, relationships with headquarters
offices, and performance reporting.

In reviewing staff performance appraisals and Volunteer performance reporting, the OIG
found no significant areas of concern that would warrant action by the post. Staff
performance reviews are conducted on a regular basis, and most employees’ personnel
files contained numerous performance reviews. The post has also successfully
implemented the Volunteer Reporting Tool (VRT), an online tool that gathers
performance data from Volunteers. Volunteer internet access has improved and the post
did not face the anticipated logistical challenges. Some Volunteers stated that the VRT
helped them better understand their project plan goals, and the tool will improve data
quality. The main Volunteer concern is that the tool is not currently compatible with
Macintosh computers.

One area of concern for staff and Volunteers was the information provided at Staging 8
that set incorrect expectations for Volunteers. The most common complaint was that
some staff members over exaggerated the extent to which the Turkmen government
monitors Volunteers’ activities. Volunteers were also incorrectly told that they would be
invited to celebrate certain holidays, such as Thanksgiving, at the U.S. Embassy. This set
incorrect expectations for Volunteers. Peace Corps’ Acting Director released a memo in
March 2009, that states that country-specific information should not be provided during
Staging. Implementing this directive will eliminate the problem for future Volunteer
inputs.

Staffing demands, budget constraints, and programming challenges make it difficult to
increase the number of Volunteers in PC/Turkmenistan.

Peace Corps is anticipating budget increases for fiscal year 2010, and EMA region staff
expressed an interest in growing the program in PC/Turkmenistan. However, post staff
stated that the Ministries of Health and Education do not want to increase the number of
Volunteers, and staff and Volunteers are concerned about growth because of
programming difficulties that were discussed in the Programming section of the report.
Furthermore, staff are already overburdened because of the paperwork and approvals that
the Turkmen government requires for each Volunteer. One staff member commented, “I
know it must look strange to see the number of Volunteers and staff. But the paperwork
required for each Volunteer is enormous. . . . We can’t support a lot more Volunteers
with this staff. If the government eased up on the bureaucracy we could.”


8
 Staging is an event that Peace Corps Invitees participate in before beginning their training and Volunteer
service.

Final Program Evaluation Report: Peace Corps/Turkmenistan                                                17
The programming staff’s workload was further increased when the Health Program
Manager left in August 2008. The post submitted a budget request to replace the position
for fiscal year 2009, but it was denied by headquarters in a time when the agency was
experiencing budget challenges and asked all offices to make budget reductions.
Although a new Program Manager is scheduled to start in August 2009; the post was
short-staffed for one year. During that time, the Health Program Assistant assumed many
of the Program Manager responsibilities in addition to her regular duties, and she had to
oversee site development, develop and conduct PST health technical training, serve as a
Housing Coordinator, and provide overall Volunteer support. The increased workload
impacted all members of the programming and training staff and left the health project
with fewer staff members to provide Volunteer support.

Although some staff members in the EMA region and PC/Turkmenistan are hesitant to
grow the Turkmenistan program, others want to increase the number of Volunteers. One
region staff member stated that the lack of planned growth in Turkmenistan is “one of the
issues we need to address.” Unless the relationship with the government changes and the
workload is eased, Volunteers and staff do not think the program should grow. One
Volunteer commented, “I would recommend that the program get smaller. So many sites
don't know what to do with us or don't want us and they make that very clear. . . . I'm all
for Peace Corps growth. I just don't know if Turkmenistan is the place it should happen.”
Instead of increasing the number of Volunteers, staff in PC/Turkmenistan suggested that
the post could grow by increasing the budget and possibly expanding the number of
programs without increasing the number of Volunteers.


               We recommend:

                 13. That the post and region work together to develop
                     a growth strategy that takes into consideration
                     staffing and programming constraints.


African-American Volunteers were not sufficiently advised about the challenges they
would face in Turkmenistan.

Regarding Volunteer diversity, Indicators of a High Performance Post section 4.19
provides the following guidance:

       “The country director, staff, and Volunteers [should] acknowledge the
       diversity of the Peace Corps and the diversity-related issues that may
       affect each of them in their relationships and in the conduct of their duties.
       The post [should carry] out specific activities to include, prepare, support,
       and properly represent various groups and help make them all, American
       and host country, full participants and positive contributors to the Peace
       Corps program and experience.”



Final Program Evaluation Report: Peace Corps/Turkmenistan                               18
When conducting Volunteer interviews some African-American Volunteers expressed
dissatisfaction that they were not well prepared for the diversity challenges they have
faced in Turkmenistan. In particular, Volunteers wanted to be forewarned of the
Turkmen name for black people, which is commonly used in Turkmenistan but is
considered a racial slur in the United States. To better prepare them, Volunteers wanted
to talk to other African-American Volunteers before arriving in country. One Volunteer
commented:

        “I was told that it doesn't matter that we're black. . . . I asked if there was
        [another black Volunteer] I could talk to and they said no. I don't think
        that's accurate. Even when I arrived in country the staff said they didn't
        have the information. Luckily, [a staff member] pulled me to the side and
        told me I'd have problems. I appreciated that. I’m not the first black
        person placed here, which is why there would have been information for
        me.”

Although the Welcome Book discusses “possible issues for Volunteers of color,” it does
not provide the specific information requested by African-American Volunteers
interviewed as part of this evaluation. Furthermore, the post does not operate a diversity
committee, although the Volunteer Advisory Committee (VAC) does have a peer support
sub-committee, and there are diversity sessions included in PST.


                We recommend:

                  14. That the post work with Placement and Country
                      Desk staff to determine what information, if any,
                      can be provided to minority Volunteers to better
                      set expectations.


Information-gathering restrictions in Turkmenistan make it difficult for Masters
International students in the health sector to complete their program requirements.

Master's International (MI) is a Peace Corps program where students enroll in a master’s
degree program and complete classes before going abroad to serve as a Volunteer. MI
students who have served in the health project in Turkmenistan found it difficult to
complete the research requirements for their degree program. In Turkmenistan, people,
especially foreigners, are strongly discouraged or even prevented from gathering statistics
and doing research. The health MI Volunteers expressed frustration with the information
they were provided about their ability to complete their program requirements while
serving in Turkmenistan. One MI Volunteer commented, “I wanted to work with
statistics. I was specifically told I’d be able to do that but it wasn’t the case. . . . Before I
left I felt like the people I talked to in Washington had no idea what it would be like
when I arrived in Turkmenistan. They were telling me what I wanted to hear.”



Final Program Evaluation Report: Peace Corps/Turkmenistan                                     19
Staff in the Placement office and the MI office stated that MI Volunteers are expected to
be flexible with their education requirements and view themselves as “Volunteers first
and students second.” When deciding where to place a Masters International candidate,
Placement staff members do not take into consideration the student’s education and thesis
requirements and whether those can be achieved in the targeted country. Instead,
candidates are placed based on whether their language and technical skills match the
post’s Volunteer needs. Staff members in PC/Turkmenistan are aware that some MI
Volunteers have been dissatisfied with their ability to conduct research, although they
have not provided this feedback to headquarters or Placement staff, who were unaware of
any MI-related problems in Turkmenistan.

Currently, the Placement and MI offices do not solicit formal feedback regarding the
program from MI Volunteers or in-country staff. Instead of a formal feedback
mechanism, the Placement office relies on unsolicited feedback from the post about
whether or not they can accept MI Volunteers. The MI office conducts an annual student
census that is administered to the Program Coordinators at participating universities.
However, data is not analyzed by country, which may make it difficult to detect if certain
posts are having problems accommodating MI Volunteers.

Staff and MI Volunteers in Turkmenistan also stated that the post was not aware they
would be receiving MI Volunteers. However, an official notification letter is sent to the
country director once an MI candidate accepts the Peace Corps invitation, and an MI staff
member was able to provide the OIG with a sample notification letter for an MI
Volunteer who is currently serving in Turkmenistan.


               We recommend:

                15. That the country director and PTO assess their
                    ability to accommodate Masters International
                    students and provide feedback to the Placement
                    Office, if needed.

                16. That the Masters International staff develop a
                    feedback mechanism to identify country-specific
                    issues.


PC/Turkmenistan has outdated contact information for handling violent crimes
against Volunteers.

Responsibilities under the “Protocol: Violent Crimes Against Volunteers” was transferred
from the Office of the Inspector General (OIG) to the Office of Safety and Security (SS)
effective September 1, 2008. The Volunteer Welcome Book for PC/Turkmenistan still
lists the OIG Investigations team as the point of contact for violent crimes and provides
OIG contact information. The latest Welcome Book was likely finalized before the

Final Program Evaluation Report: Peace Corps/Turkmenistan                               20
violent crimes responsibilities were transferred but the information should be updated
before the next trainees arrive in country.

In addition, Embassy security personnel who work with PC/Turkmenistan on safety and
security matters referred to the OIG, not the Office of Safety and Security, as the office
with whom they initially need to coordinate if a Volunteer rape occurs. 9


                  We recommend:

                    17. That the post update crime reporting
                        documentation and the RSO concerning the new
                        violent crimes protocol.




9
 The OIG responds to alleged wrongdoing or criminal activity when it involves Peace Corps staff,
Volunteers, trainees, contractors, experts, consultants or funds, including Peace Corps' appropriations, host
country contributions, Small Project Assistance, Participating Agency Service Agreement, Partnership
monies, or any other agency funding sources.


Final Program Evaluation Report: Peace Corps/Turkmenistan                                                  21
                                POST STAFFING

At the time of our field visit, PC/ Turkmenistan had 34 staff positions, two of which were
vacant. The positions included three U.S. direct hire employees (USDH), two foreign
service nationals (FSN), and 29 personal services contractors (PSC). The post also
employs temporary staff/contractors to assist with PST. Given the time of our visit, these
positions were not staffed. We interviewed 11 staff members.

                              PC/Turkmenistan Positions
                          Position                       Status           Interviewed
   Country Director                                     USDH                   X
   Administrative Officer                               USDH                   X
   Programming/Training Officer                         USDH                   X
   Program Manager/TEFL                                 PSC                    X
   Program Manager/Health (vacant)                      PSC                    X
   Assistant Program Manager/TEFL                       PSC                    X
   Assistant Program Manager/Health                     PSC                    X
   Training Manager                                     PSC                    X
   Language Coordinator                                 PSC                    X
   Safety and Security Coordinator                      PSC                    X
   Medical Contractor (2)                               PSC                    X
   Medical Assistant                                    PSC
   Receptionist                                         PSC
   Administrative Assistant                             PSC
   Financial Specialist                                 FSN
   Cashier                                              FSN
   IT Specialist                                        PSC
   General Services Manager (vacant)                    PSC
   General Services Assistant                           PSC
   Janitors (3)                                         PSC
   Drivers (3)                                          PSC
   Guards (8)                                           PSC
   Data as of May 2009.




Final Program Evaluation Report: Peace Corps/Turkmenistan                               22
                            INTERVIEWS CONDUCTED

As part of this post evaluation, interviews were conducted with 17 Volunteers, 11 in-
country staff members, one returned Peace Corps Volunteer (RPCV), and 21
representatives from Peace Corps headquarters in Washington, D.C., the U.S. Embassy in
Turkmenistan, Ministry officials, and key project partners.

                 Interviews Conducted with PC/Headquarters Staff,
                     Embassy Officials, and Key Project Partners
                          Position                          Organization
     Acting Regional Director and Chief of Operations PC/Headquarters
     Chief Administrative Officer                     PC/Headquarters
     Programming & Training Advisor                   PC/Headquarters
     Safety & Security Desk Officer1                  PC/Headquarters
     Country Desk Officer                             PC/Headquarters
     Acting Director of the Office of Overseas
                                                      PC/Headquarters
     Programming and Training Support
     Programming & Training Specialist/Education      PC/Headquarters
     Programming & Training Specialist/Health         PC/Headquarters
     Technical Training Specialist
                                                      PC/Headquarters
     Language and Cross Cultural Specialist                         PC/Headquarters
     Training Specialist, Language Testing and                      PC/Headquarters
     Training
     Cross-Cultural and Diversity Training Specialist               PC/Headquarters
     SPA Program Coordinator (2)                                    PC/Headquarters
     Master's International Assistant Program Manager               PC/Headquarters
     Placement Officer (2)                                          PC/Headquarters
                                                                    US Embassy in
     Chargé d’Affaires
                                                                    Turkmenistan
                                                                    US Embassy in
     Regional Security Officer
                                                                    Turkmenistan
                                                                    Turkmenistan’s Ministry of
     Head of the International Relations Department
                                                                    Education
                                                                    Turkmenistan’s Ministry of
     Deputy Head of the Curative Department
                                                                    Health
     Returned Peace Corps Volunteer from                            RPCV
     Turkmenistan
       Data as of May 2009
       1
         This individual left the position in the middle of the evaluation.




Final Program Evaluation Report: Peace Corps/Turkmenistan                                        23
                      LIST OF RECOMMENDATIONS

WE RECOMMEND:

1. That the post and region develop a strategy to address the obstacles that are impacting
   Volunteer effectiveness.

2. That the post work with OPATS to assess the viability of the project plans. If needed,
   make changes to the project plan(s), VADs, competencies, training, and/or related
   processes and documentation.

3. That the post develop MOUs with the local Ministries.

4. That the post either pursue reimbursement from the government of Turkmenistan for
   the cost of housing and taxes paid or renegotiate the host country agreement to reflect
   current realities.

5. That the post continue to improve technical training to match the realities of
   Volunteer assignments.

6. That the post and region assess the viability of an online training module for Invitees.

7. That the post develop methods to assess trainees’ competencies during PST.

8. That the PC/Turkmenistan programming staff provide Volunteers with regular, timely
   trimester report feedback.

9. That the safety and security coordinator develop a process to immediately
   communicate consolidation point changes to affected Volunteers.

10. That the country director require post staff to review the accuracy and completeness
    of Site Locator Forms.

11. That the post complete an annual EAP test that includes all Volunteers and trainees in
    accordance with its EAP testing and reporting plan.

12. That the post assess the clarity of the housing criteria and update the housing
    checklist, if needed.

13. That the post and region work together to develop a growth strategy that takes into
    consideration staffing and programming constraints.

14. That the post work with Placement and Country Desk staff to determine what
    information, if any, can be provided to minority Volunteers to better set expectations.

Final Program Evaluation Report: Peace Corps/Turkmenistan                                 24
15. That the country director and PTO assess their ability to accommodate Masters
    International students and provide feedback to the Placement Office, if needed.

16. That the Masters International staff develop a feedback mechanism to identify
    country-specific issues.

17. That the post update crime reporting documentation and the RSO concerning the new
    violent crimes protocol.




Final Program Evaluation Report: Peace Corps/Turkmenistan                             25
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
             REGIONAL RESPONSE TO THE PRELIMINARY REPORT
       ON THE PROGRAM EVALUATION OF PEACE CORPS/TURKMENISTAN

The OIG conducted a program evaluation of PC/Turkmenistan in May-June of 2009. As
outlined in the August 2009 preliminary report, evaluator Heather Robinson evaluated and
reviewed programming, training, Volunteer support, health and safety, housing, sites, and staff
organization.

PC/Turkmenistan staff and Volunteers would like to acknowledge the work of Ms. Robinson,
who conducted her duties with a high degree of professionalism and cultural sensitivity.

In keeping with the Peace Corps service mission, Post was pleased to facilitate travel to several
Volunteer sites for Ms. Robinson. She had the opportunity to visit nearly a quarter of the
Volunteer population, personally observe the work Volunteers are doing in the field, and conduct
Volunteer interviews.

Post and Region feel that the OIG evaluation was extraordinarily helpful and appreciates the
efforts of Ms. Robinson.


Executive Summary
Post and Region concur with all seventeen recommendations provided by the OIG. Technically,
Region believes recommendation #16 is actionable only by the Office of University Programs
(VRS/DP/OUP) which manages the Masters International program. Its response to the
recommendation will be submitted in a memorandum from the Office of Volunteer Recruitment
and Selection.

PC/Turkmenistan acted swiftly on the majority of the programming and safety and security
portions of the recommendations and can report that it has already implemented or is currently
implementing action in accordance with these recommendations. However, some
recommendations continue to be on-going and closure on those particular items may not occur
until a new country director is identified 1 .

Some of the changes instituted include the:
• assessment and utility of an online training module for Community Health Education (CHE)
invitees;
• revision of the Turkmenistan Welcome Book and Volunteer Assignment Description booklets
to detail the challenges faced by minority Volunteers; and
• realization that the placement of Masters International students as CHE Volunteers in
Turkmenistan is not realistic given the challenges in conducting formal research using patient
data.

The PC/Turkmenistan staff and the EMA Region understand there is always room for
improvement and we appreciate the insight and information provided by the Peace Corps Office
of the Inspector General.




1
  The country director who hosted the OIG evaluator during the visit has since been transferred to another post
within the EMA Region, and consulted on the response to these recommendations. With this in mind, several
recommendations cannot be acted upon until permanent senior leadership is established (anticipated February 2010).
Recommendations and Responses

1. That the post and region develop a strategy to address the obstacles that are impacting
   Volunteer effectiveness.

    Concur

As stated in the OIG report, Peace Corps Turkmenistan will develop a strategy to “engage the
Turkmen government differently on both a national and local level” to address the obstacles to
appropriate site placement for effective capacity building of host-country counterparts and
implementation of realistic project plans. Working with committed stakeholders among the
government partners, Peace Corps Turkmenistan staff and representative Volunteers will hold
project advisory meetings (PAM) to develop this strategy and implement it in FY 2010.


2. That the post work with OPATS to assess the viability of the project plans. If needed,
   make changes to the project plan(s), VADs, competencies, training, and/or related
   processes and documentation.

    Concur

Post believes this recommendation is directed largely towards programming in the Community
Health Education (CHE) project. As the OIG evaluator discovered, Volunteers wish to reach out
to the community in ways that the host country government discourages (i.e. teaching healthy
topics in schools) and Volunteers also find that their skills may not match those of their Turkmen
counterparts. Post has found that the most successful CHE Volunteers are those who are self-
motivated and manage to find creative ways in their approach to health education. Post is
pleased to report that a highly qualified CHE Program Manager has been hired and will train the
FY 2010 CHE input (and currently serving CHE PCVs) to implement creative methodology in
delivering health education and new health promotion initiatives that will be amenable to the
host country government.

Post concurs that the VADs for both TEFL and CHE need to be updated to address the
challenges that all Volunteers may face, and eliminate any references that the PCV “will train”
doctors and/or nurses at their host clinic or hospital. VADs for Quarter 4 2010 inputs are due to
be reviewed by VRS/Placement by November 16, 2009.

Lastly, post staff and EMA Region will work with OPATS staff to develop a timeline of
technical assistance (TA) to address the viability of current project plans. As a result of that TA
and, in concurrence with the Turkmenistan government partners engaged in recommendation #1
above, changes will be made by the end of FY 2010.


3. That the post develop MOUs with the local Ministries.

    Concur

Post concurs, in principle, with this recommendation. As the OIG evaluator discovered during
her visit, the excessive bureaucratic nature associated with our relationship with the government
of Turkmenistan makes this task extraordinarily daunting. A memorandum of understanding
with each partner ministry, we assume, would only be symbolic in nature. Nevertheless, even
without a formal MOU Post enjoys a very good relationship with the Ministry of Health and the
Ministry of Education and, through the Ministry of Foreign Affairs, the country director will
attempt to leverage our personal relationships in each respective ministry to pursue a solution
and clarify each party’s roles and responsibilities.


4. That the post either pursue reimbursement from the government of Turkmenistan for
   the cost of housing or taxes paid or negotiate the host country agreement to reflect
   current realities.

    Concur

Post concurs, in principle, with this recommendation and has continuously pursued action on this
matter. As was outlined in the FY 2006 response to the OIG audit of PC/Turkmenistan, the
government of Turkmenistan has not outright denied our requests but we have yet to see action,
positive or negative. As was explained in our 2006 response to the OIG recommendation, the
individual who negotiated and signed our current country agreement is incarcerated; as such,
revisiting the terms of our country agreement regarding housing and taxes may serve to put the
entire agreement under greater scrutiny and revision, which may not be in our favor. It was
suggested in our response in 2006 that a high level delegation from Peace Corps/Washington
assist in this area. In 2007, the Regional Director brought up the matter with Minister of Foreign
Affairs Rashid Meredov in Ashgabat and was assured that the matter would be reviewed. Post
plans to draft a formal letter to the minister of foreign affairs (after a new country director is in
place) requesting clarification on the original Country Agreement that states housing and tax
credits.

Region considers this an ongoing situation that will require the continuing effort of new Peace
Corps leadership to discuss this shortcoming in the country agreement.


5. That the post continue to improve technical training to match the realities of Volunteer
   assignments.

    Concur

Post has thoroughly reviewed surveys submitted by PCVs who experienced the previous PST
and as a result the PST in 2010 will include more technical sessions on lesson planning, teaching
methodologies, classroom management, and working with counterparts. The PST for the next
input is scheduled to begin October 2, 2010.

It is important to note that a TDE process was performed in 2008 for the FY 2008 input (T-17).
The advantages of this process are evident as the T-17 input reported an 89% “average
effectiveness or better” in their technical training. It was the 2007 input (T-16) group that
reported only a 57% “average effectiveness rate,” e.g. before the TDE process. Therefore, in
order to improve our technical training, post plans to complete a formal health training
curriculum by December 31, 2009, that will be given to all CHE Trainees during the 2010 PST.

The curriculum will include session plans and relevant handouts (in both Turkmen and English)
that the PCV can present at site. Session topics will include but will not be limited to Anemia,
High Blood Pressure, Tuberculosis, Hygiene, Nutrition, HIV/AIDS Prevention, Drug Education,
infectious diseases and gastro-intestinal disorders. Once the curriculum is complete, we will
distribute to all currently serving CHE Volunteers.
Regarding the TEFL program, post will incorporate a full day of training at the upcoming Mid-
Service Training (January 27-29, 2010) covering curriculum development, classroom
management, and teaching methodologies. The session plans for this MST will be completed by
January 15, 2010.


6. That the post and region assess the viability of an online training module for Invitees.

    Concur

PC/Ukraine currently has an online training course for TEFL Volunteers. On October 9, 2009,
post staff met with their IT specialist and planned a conference call with the IT Specialist in
Ukraine to learn about the system they are currently using. Post plans to adopt the Ukraine
model for online pre-departure training and have the module online by March 31, 2010.

Post will encourage all CHE program invitees to read material available through USAID Bureau
of Global Health and the Global Health eLearning Center. All invitees are asked to become
familiar with relevant global health topics before their arrival in Turkmenistan. The CDU
promotes this material in communication with all CHE invitees. Although this material is not
Turkmenistan-specific, it provides strategies and ideas to promote healthy lifestyles in the
developing world; once the next group of CHE trainees arrive in country, their training will
focus on the application of technical knowledge to the public health and cultural contexts of
villages and towns in Turkmenistan.

All invitees are asked that they complete all three required courses (diarrheal disease,
tuberculosis basics, family planning 101), and at least two additional courses (ranging from
immunization essentials to newborn care).

Post, OPATS, and Region will collaborate to identify best practices utilized by other posts in
promoting other online methods in order to enhance the skills and abilities of invitees prior to
their arrival in Turkmenistan. Likewise, such trainings can be offered during and after PST to
increase the skills and knowledge of generalist PCVs.


7. That the post develop methods to assess trainees’ competencies during PST.

    Concur

Post currently has in place a system using self-evaluation, observations, and interviews to assess
competencies. In addition to what post currently uses, PC/Turkmenistan will develop a written
test covering all core competencies. Separate tests for Health and TEFL PCTs will be developed
but both will contain questions on Safety & Security, Medical, Language, and Cross Cultural
issues and other core competencies. This tool will be completed by October 31, 2009.


8. That the PC/Turkmenistan programming staff provide Volunteers with regular, timely
   trimester report feedback.

    Concur

At a staff meeting on August 24, 2009, post programming and training staff were asked to report
feedback on PCV’s trimester reports using the Program Notes section of VIDA. The last
trimester reports came in September 7, 2009, and all P&T staff has implemented the changes in
the VIDA database.


9. That the safety and security coordinator develop a process to immediately communicate
   consolidation point changes to affected Volunteers.

    Concur

Post has already implemented a procedure that, upon any changes to the consolidation point, the
post Safety and Security Coordinator (SSC) will notify the affected PCVs in the region by cell
phone, land-line phone, and e-mail. Post will control this activity by creating a roster of PCVs
affected by this change, check off all those who have confirmed receipt of this information, and
the country director will, in turn, sign off on this list to verify the notification.


10. That the country director require post staff to review the accuracy and completeness of
    Site Locator Forms.

    Concur

Post has instituted a policy that requires post staff to review the site locator form (SLF) for
accuracy at the particular site in question when a PCV is placed in his/her site after swearing-in
or after a recent site re-assignment. The first staff member to visit this site assumes this
responsibility. The SLF has been changed to include a staff signature line, verifying the
accuracy and completion of the form. The updated SLF has been distributed to all staff by e-
mail and is located in the company network folder.


11. That the post complete an annual EAP test that includes all Volunteers and trainees in
    accordance with its EAP testing and reporting plan.

    Concur

Post carried out a complete EAP test on August 31, 2009, and will be held on a randomized basis
to ensure unpredictability. Another EAP test will be scheduled for trainees exclusively during
PST between the periods of October 2 – December 5, 2010.


12. That the post assess the clarity of the housing criteria and update the housing checklist,
    if needed.

    Concur

Post concurs that a few items on the housing checklist can be unclear and will be updated by
October 1, 2009, and discussed with all staff who coordinate PCV housing. Post has identified
that problems arise when a potential host family makes a promise to have something done before
the arrival of the Volunteer and upon arrival the task is not complete. Post also concurs that
there have been incidences of the housing criteria not being met at all. Post will require all
program managers and assistants to make final checks of all host family houses before the
Volunteer arrives. This will take place immediately for current and future Volunteer housing
arrangements.
13. That the post and region work together to develop a growth strategy that takes into
    consideration staffing and programming constraints

    Concur

Post and region acknowledge that the past year presented significant challenges in the face of
budget reductions and staff shortages. Post is pleased to report that a new program manager for
the health program has been hired. Also, post has a new programming and training officer
(USDH), a new training manager, and a new training assistant. At this moment, Post feels that
they are well-equipped to provide the support that the Volunteers require.

The Region is aware of the constraints that Post experiences with regards to the bureaucracy
involved in site identification, site selection, and placement. The EMA Region relies upon the
feedback of all posts when it appeals for growth strategies. While the Region is dedicated to a
growth strategy, growth will be considerably slower at posts that indicate problems or concerns
related to that growth, be it related to staffing, programming, or external factors.


14. That the post work the Placement and Country Desk staff to determine what
    information, if any, can be provided to minority Volunteers to better set expectations.

    Concur

Post and the CDU unit will collaborate to re-write the “possible issues for Volunteers of color”
segment in the Welcome Book and also briefly discuss these challenges in the Volunteer
Assignment Description handbook. Volunteers serving in other Central Asian posts experience
the same type of diversity challenges and those particular posts have pro-actively authored
effective vignettes of the Volunteer experience, which has been appreciated by minority
Volunteers. Post and the CDU will tailor a country-specific segment using the language that has
proven to be effective from these neighboring posts that experience similar challenges. Post will
also seek feedback from the VAC peer support committee for contributions.

There are many opportunities to discuss challenges for diverse Volunteers (e.g. perceptions
regarding skin color, religion, gender, gay/lesbian). The CDU answers inquiries by telephone
and e-mail regarding these issues with a frank discussion on the realities encountered by
minority Volunteers. These issues are also discussed during staging; furthermore, Post and the
Region encourage the use of social networking sites (e.g. Facebook) to open up discussions
regarding challenges for Volunteers of diverse ethnicities and backgrounds. Post and the CDU
will encourage the use of new media to enhance discussion of these and other themes to prepare
trainees properly for their service.


15. That the country director and PTO assess their ability to accommodate Masters
    International students and provide feedback to the Placement Office, if needed.

    Concur

Post concurs with the OIG findings that it is indeed difficult for anyone to conduct formal
academic research in Turkmenistan. This is particularly true for MI students who are pursuing a
public health-related degree. Post has found that the host country government prohibits the
collection of patient data for academic research purposes. However, post believes that TEFL MI
Volunteers can still find success with accomplishing their degree requirements given proper
messaging prior to the assignment.

The PTO has instructed the CDU to include instructions to VRS/Placement to check with Post
before placing any Masters International invitees to Turkmenistan in FY 2010 due to the
difficulties in performing academic research, especially for those invited to the CHE program.
Post will now detail in all subsequent guidance to VRS/Placement that post receive notification
prior to the invitation of a MI student.


16. That the Masters International staff develop a feedback mechanism to identify country-
    specific issues.

    Concur

       1. The MI staff will work with the Office of Strategic Information, Research and
       Planning (OSIRP) to insert questions in the Annual Volunteer Survey to identify country-
       specific issues experienced and noted by MI Volunteers.

       2. The MI Staff will also work with OSIRP to assess the most practical method of
       obtaining a wider survey from MI Volunteers on how the MI Volunteer experience
       worked in relation to their academic requirements.

       3. The MI staff will continue to work and meet regularly with the MI Liaison in the
       Placement Office. Both MI staff and the MI Liaison in Placement will evaluate country-
       specific issues on a case-by-case basis and address as needed.

       4. A new MI/Placement email address has been established in August 2009. All MI
       coordinators, and through them MI students, are informed about the existing telephone
       number and the new email address dedicated to MI Placement issues. This will streamline
       support for pre-service MI students with questions or concerns regarding placement.

       5. MI staff will continue to notify Post staff about the MI applicants’ acceptance of the
       invitation to serve. These notifications include the MI students major at their university as
       well as a link to their program’s website with more information. MI staff also includes
       the following statement to Post: “His/Her Peace Corps assignment will shape any
       academic project he/she might undertake while overseas. Although no special
       accommodations are being requested by Peace Corps headquarters, we encourage you to
       talk with the MI student about his/her graduate school requirements before the post
       finalizes his/her site and assignment.” Post is also encouraged to contact MI staff with
       any questions or concerns regarding MI or the graduate student’s program, and contact
       information is provided.

       6. The MI staff will determine with the Regions a mechanism to ensure that any country
       issues related to MI Volunteers be shared with all offices and posts involved, and that
       appropriate responses are agreed upon. We are currently piloting a program to strengthen
       linkages between MI and specific Posts. If the pilot is adopted on a full-scale basis
       throughout all MI partnerships, then it will also enable a process for more direct feedback
       and surveying of MI Volunteers as it relates to their post-specific experiences.
17. That the post update crime reporting documentation and the RSO concerning the new
    violent crimes protocol.

    Concur

The Embassy RSO met with Post to discuss the most updated violent crimes protocol on August
12, 2009. Furthermore, the Volunteer Handbook has been updated with this information and the
staff is aware of the new protocol.


Appendices

Post has provided supporting documentation to ensure compliance on actionable
recommendations. Post and region present the documentation for recommendations 7 (two
documents), 8, 10, 12 (two documents), 15, and 17 (two documents).
APPENDIX B

                                OIG COMMENTS

Management concurred with all 17 recommendations. We closed recommendation
numbers 6, 7, 9, 10, and 15. Though we have closed recommendation number 10, we
encourage the post to update staff handbooks, process descriptions, etc. that are related to
Site Locator Form verification so the expectations and staff responsibilities are clear to
current and future staff members.

Recommendation numbers 1 – 5, 8, 11 – 14, 16, and 17 remain open pending
confirmation from the chief compliance officer that the following has been received:

   •   For recommendation number 1, documentation that the post and region have
       developed a strategy to address the obstacles that are impacting Volunteer
       effectiveness.

   •   For recommendation number 2, documentation that the post has worked with
       Overseas Programming and Training Support to assess project plan viability and
       any documentation that is updated as a result of those discussions.

       The OIG notes that the recommendation applies to both the TEFL and CHE
       project plans.

   •   For recommendation number 3, a copy of the memorandum of understanding with
       the local Ministries.

   •   For recommendation number 4, a copy of the updated country agreement or proof
       of reimbursement for Volunteer housing by the government of Turkmenistan.

   •   For recommendation number 5, a copy of the updated Calendar of Training
       Events or other documentation that reflects the technical sessions covered in PST
       as well as the updated CHE curriculum and MST session plans.

   •   For recommendation number 8, a copy of Volunteer Information Database
       Application Program Notes that reflect trimester report feedback.

       The OIG encourages the post to update staff handbooks, process descriptions, etc.
       that are related to trimester report feedback so the expectations and staff
       responsibilities are clear to current and future staff members.

   •   For recommendation number 11, a copy of the Emergency Action Plan test results
       from August 31, 2009.
APPENDIX B
   •   For recommendation number 12, a copy of the updated housing checklist(s).

       The OIG notes that a checklist was provided, although the unclear language had
       not been modified in the version received. The OIG would also like to note that
       changes should be reflected in all versions of the housing checklist (host family
       and apartment) if separate checklists still exist.

   •   For recommendation number 13, documentation of the collaborative growth
       strategy between the post and region that is specific to Turkmenistan.

   •   For recommendation number 14, a copy of the updated Welcome Book and
       Volunteer Assignment Descriptions.

   •   For recommendation number 16, documentation of the outcomes of the
       discussions between Masters International (MI) staff and the Office of Strategic
       Information, Research and Planning concerning related changes to questions in
       the Annual Volunteer Survey and a method to survey MI Volunteers.

       The OIG would also like to know the outcomes of the planned discussions with
       the region concerning a mechanism for identifying and sharing country-specific
       issues and the results of the pilot program.

   •   For recommendation number 17, a copy of the updated Welcome Book and
       violent crimes protocol documentation.

       The OIG notes that the violent crime documentation that was submitted is
       outdated and therefore does not fulfill the recommendation. If needed, the post
       and/or region may wish to work with the Office of Safety and Security to identify
       inaccuracies and obtain updated protocol.

We would like to note that we issued our Preliminary Report on the Program Evaluation
of Peace Corps/Turkmenistan to the agency on August 10, 2009. In September 2009, the
government of Turkmenistan informed Peace Corps that the next Volunteer input would
be welcomed in September 2010, not September 2009 as originally planned. As a result,
the September 2009 Volunteer input was canceled.

In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.
APPENDIX C


         PROGRAM EVALUATION COMPLETION
               AND OIG CONTACT

OIG CONTACT        Following issuance of the final report, a stakeholder
                   satisfaction survey will be distributed. If you wish to
                   comment on the quality or usefulness of this report to help
                   us improve our products, please email Susan Gasper,
                   Acting Assistant Inspector General for Evaluations, at
                   sgasper@peacecorps.gov, or call 202.692.2908.

STAFF              This program evaluation was conducted under the
ACKNOWLEDGEMENTS   direction of Susan Gasper, Acting Assistant Inspector
                   General for Evaluations, and by Evaluator Heather
                   Robinson. Additional contributions were made by
                   Reuben Marshall and April Thompson.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
